Appellate Case: 19-1379

Document: 010110335120

Date Filed: 04/17/2020

UNITED STATES COURT OF APPEALS

Page: 1
FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

April 17, 2020
Christopher M. Wolpert
Clerk of Court

DAVID WAYNE ROBINSON,
Plaintiff - Appellant,
v.
JARED POLIS,* Governor, individual and
official capacity; MICHAEL HANCOCK,
Mayor, individual and official capacity;
PHIL WEISER, Attorney General,
individual and official capacity; FRAN
GOMEZ, Sheriff, individual and official
capacity,

No. 19-1379
(D.C. No. 1:18-CV-01453-LTB-GPG)
(D. Colo.)

Defendants - Appellees.

ORDER AND JUDGMENT**
Before MATHESON, BALDOCK, and KELLY, Circuit Judges.

* Jared Polis, Colorado’s current Governor, is substituted for Colorado’s
former Governor, John Hickenlooper.
** After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument. This order and judgment is not binding
precedent, except under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

/W ' l

Appellate Case: 19-1379

Document: 010110335120

Date Filed: 04/17/2020

Page: 2

Pro se state prisoner David Wayne Robinson appeals from the district court’s
dismissal of his 42 U.S.C. § 1983 amended complaint as frivolous. We dismiss his
appeal as frivolous and deny him leave to proceed in forma pauperis (“ifp”) on
appeal. Further, because Mr. Robinson is subject to the three-strikes provision of the
Prison Litigation Reform Act (“PLRA”), we impose a strike under
28 U.S.C. § 1915(g).

a, sr*«e
^ ifp

I. BACKGROUND
Mr. Robinson, a Colorado state prisoner, sued under § 1983 for alleged
violations of his civil rights when he was a pre-trial detainee at the Denver Detention
Facility (“DDF”). According to Mr. Robinson, because various state and local
officials collected a $30 fee when he was booked into the DDF, they infringed (1) his
due process rights, (2) the of separation of powers, and (3) his right to be free from
cruel and unusual punishment.
The magistrate judge found Mr. Robinson’s initial complaint was deficient and
directed him to file an amended complaint within 30 days. When he failed to do so,
the magistrate judge reviewed the original complaint under 28 U.S.C.
§ 1915(e)(2)(B)(i). He recommended dismissal with prejudice as legally frivolous
because Mr. Robinson failed to plead factual allegations to support his claims.

Because Mr. Robinson is proceeding pro se, we construe his filings liberally,
but we do not act as his advocate. Yang v. Archuleta, 525 F.3d 925, 927 n.l
(10th Cir. 2008).
2

►

P
4

Appellate Case: 19-1379

Document: 010110335120

Date Filed: 04/17/2020

Page: 3

Shortly thereafter, Mr. Robinson filed a belated amended complaint,
explaining he had not received a copy of the magistrate judge’s order to file an
amended complaint until after the 30-day deadline expired. He asked the district
court to accept the untimely complaint for filing. Mr. Robinson did not raise any
substantive objections to the magistrate judge’s recommendation. He argued only
that the district court should accept his late-filed amended complaint, which the court
read to contain only a due process claim.
The district court was “unconvinced” by Mr. Robinson’s explanation as to why
he failed to file a timely amended complaint. R. at 84. But the court determined that
even if it “were to accept and consider the amended prisoner complaint... the action
would still be dismissed” because the complaint “fails to assert factual allegations to
support an arguable due process claim.” Id. at 85. It dismissed Mr. Robinson’s
amended complaint with prejudice as legally frivolous and denied leave to proceed
ifp on appeal.2
II. DISCUSSION
A. Mr. Robinson’s Claims
We review a district court’s order dismissing claims as frivolous under
§ 1915(e)(2)(B)(i) for an abuse of discretion. See Fogel v. Pierson, 435 F.3d 1252,

2 On appeal, Mr. Robinson maintains he was not at fault for failing to file a
timely amended complaint. Because the district court overlooked the untimely filing
and reviewed the amended complaint, timeliness “has no bearing on the ultimate
outcome of this case,” and we will not address it on appeal. Orr v. City of
Albuquerque, 417 F.3d 1144, 1154 (10th Cir. 2005).
3

Appellate Case: 19-1379

Document: 010110335120

Date Filed: 04/17/2020

Page: 4

1259 (10th Cir. 2006). If the district court based its frivolousness determination a
legal determination, we review that issue de novo. Id.
1. Separation of Powers and Cruel and Unusual Punishment
The magistrate judge determined the original complaint failed to assert factual
allegations to support the claims of separation of powers3 or cruel and unusual
punishment and recommended they be dismissed as legally frivolous. Although
Mr. Robinson alludes to these claims in his brief, he has waived appellate review
because he did not object to these Findings and recommendations. “We have adopted
a firm waiver rule when a party fails to object to the findings and recommendations
of the magistrate.” Duffield v. Jackson, 545 F.3d 1234, 1237 (10th Cir. 2008)
(brackets and internal quotation marks omitted). “The failure to timely object to a
magistrate’s recommendations waived appellate review of both factual and legal
questions.” Id. (internal quotation marks omitted). See also United States v. 2121 E.
30th St., 73 F.3d 1057, 1060 (10th Cir. 1996) (finding a general objection insufficient
to preserve appellate review of specific issues).
2. Due Process
The magistrate judge determined that “[i]n order to pursue a due process
claim, [Mr. Robinson] must file an amended prisoner complaint that adequately
alleges that the booking fee either deprived him of liberty or that he was entitled to a

3 We are unaware of any authority, and Robinson has cited none, that the
doctrine of separation of powers is a source of individual rights actionable under
§ 1983.
4

Appellate Case: 19-1379

Document: 010110335120

Date Filed: 04/17/2020

Page: 5

refund of the booking fee but the post-deprivation remedies are inadequate.” R. at 54
(internal quotation marks omitted). In its review of the amended complaint, the
district court found that Mr. Robinson “has not adequately asserted factual
allegations to support a procedural due process claim for the same reasons as stated
in [the magistrate judge’s recommendation]. As a result, the only claim asserted in
the amended prisoner complaint suffers from the same deficiencies as the initial
complaint.” Id. at 86.
On appeal, Mr. Robinson fails to address these deficiencies. Instead, he argues
that “[t]here should have been no such deprivation ... to begin with.” Aplt. Opening
Br. at 7. This perfunctory argument is insufficient to invoke this court’s review. See
Murrell v. Shalala, 43 F.3d 1388, 1389 n.2 (10th Cir. 1994) (“[P]erfunctoxylL
allegations of error that “fail to frame and develop an issue [are] [in]sufficient to
invoke appellate
review.”).
, .—- - —
B. Strike for Frivolousness
The three-strikes provision, § 1915(g), states that after a prisoner files three
civil “action[s] or appeals]” that are dismissed as “frivolous, malicious, or [for
failure] to state a claim,” he is no longer entitled to proceed ifp unless he is in
“imminent danger of serious physical injury.” A claim is frivolous “where it lacks an
arguable basis either in law or fact.” Neitzke v. Williams, 490 U.S. 319, 325 (1989).
Mr. Robinson has filed three civil rights cases, including this one, related to
his pre-trial detention at the DDF. All of them have produced § 1915(g) strikes, first
in Robinson v. Coffman, No. 18-cv-01455-GPG, 2019 WL 8223565 (D. Colo. Mar. 7,
5

Appellate Case: 19-1379

Document: 010110335120

Date Filed: 04/17/2020

Page: 6

2019), and then in Robinson v. Firman, No. 18-cv-01494 (D. Colo. Feb. 21, 2019),
which were both dismissed as frivolous. Strike three was assessed in this case when
the district court dismissed the amended complaint as frivolous. Robinson v.
Hickenlooper, No. 18-cv-01453 (D. Colo. Apr. 23, 2019).4
Mr. Robinson’s brief simply reiterates his amended complaint’s conclusory
averments—namely, that the booking fee violates due process and is part of a corrupt
scheme to collect money from pre-trial detainees. He does not address the district
court’s conclusion that his amended complaint was frivolous or attempt to
demonstrate that his claims do not meet the § 1915(e)(2)(B)(i) standard for frivolity.
We therefore assess the fourth strike here for a frivolous appeal.
III. CONCLUSION
We dismiss Mr. Robinson’s appeal as frivolous, deny his motion for ifp status,
and impose a strike under the PLRA. We remind Mr. Robinson of his obligation to
pay the filing fee in full.
Entered for the Court
Scott M. Matheson, Jr.
Circuit Judge

4 Although the district court’s strike here was Robinson’s third, we permitted
him to proceed ifp in this appeal.
6

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 18-CV-01453-LTB-GPG
DAVID WAYNE ROBINSON,
Plaintiff,

;

j

v.

d

JOHN HICKENLOOPER, Governor, individual and official capacity,
MICHAEL HANCOCK, Mayor, individual and official capacity,
CYNTHIA COFFMAN, Attorney General, individual and official capacity
PATRICK FIRMAN, Sheriff, individual and official capacity,
Defendants.
ORDER
This matter is before the Court on the Recommendation of United States
Magistrate Judge Gordon P. Gallagher filed on April 5, 2019. (ECF No. 17). Plaintiff
has filed timely written objections'to the Recommendation. (ECF No. 19). The Court
has therefore reviewed the Recommendation de novo in light of the file and record in
this case. On de novo review the Court concludes that the Recommendation is correct.
In the Recommendation, Magistrate Judge Gordon P. Gallagher noted that on
February 13, 2019, the Court had ordered Plaintiff to file an amended prisoner
complaint within thirty days. (ECF No. 17 (citing ECF No. 14)). As Plaintiff failed to file
an amended prisoner complaint within the time allowed as directed, Magistrate Judge
Gallagher proceeded to review the original prisoner complaint filed on June 11, 2018.
(ECF No. 1). Magistrate Judge Gallagher recommended that the prisoner complaint be

t

.f*

It*

1‘*

RECEIVED

1

JUL - 7 2020
•FFICE OFT

4

.S.

dismissed because Plaintiff failed to adequately allege the personal participation of each
t

named defendant, and he failed to assert factual allegations to support an arguable due
*

3

process claim, separation of powers claim, and cruel and unusual punishment claim.
(ECF No. 17). The report and recommendation from Magistrate Judge Gallagher was
/

entered on April 5, 2019. {Id.).
On April 12, 2019, Plaintiff filed an untimely amended prisoner complaint. (ECF
No. 18). In the amended prisoner complaint, Plaintiff fails to provide any explanation as
to why the document was untimely filed. However, in his Objections filed on April 17
2019, he now argues that he did not receive the Court’s February 13, 2019 Order to
Amend until April 2, 2019, after the deadline to file an amended prisoner complaint had
already passed. (ECF No. 19 at 1). He further states “[a]ll my dates of incoming and
outgoing mail have / is [sic] documented with the legal mail system” and “I can prove the

%

date that I received the [February 13, 2019] order.” {Id.). Plaintiff alleges that he
“amended his complaint in a timely manner and sent the amended complaint in to the
District courts [sic] on April 4th. [sic] 2019 through the Crowley county legal mail
system.” {Id.).

~z

//

4-

The Court is unconvinced by Plaintiffs arguments. Although Plaintiff alleges he
can provide documentation from the legal mail system to substantiate his argument that
he did not receive the Court's February 13 order until April 2, he fails to provide any

£

evidence besides his conclusor^jillegation. Further, if Plaintiff did receive the Court’s
Feb 13 order forty-eight days after it was filed, he should have promptly notified the
court of the circumstances. Instead, he filed an untimely amended prisoner complaint
without mentioning any reason for the delay or explaining that he experienced an

2

pu/te r

extreme delay in receiving the Court’s order. Plaintiff failed to notify the Court of the
alleged delay in receiving his mail until after he received an unfavorable court order.

(V-O

t~ iA**'"|

Further, he provides novsupgort_for his argument that he sent his amended prisoner
tJt* &-

complaint to the Court on April 4, 2019. See Price v. Philpot, 420 F.3d 1158, 1163-66
(10th Cir. 2005) (describing prisoner mailbox rule). In fact, the envelope containing the
amended prisoner complaint indicates it was received by prison staff for mailing on April
10, 2019. (ECF No. 18 at 23).
Additionally, even if, in an abundance of caution, the Court were to accept and
consider the amended prisoner complaint submitted by Plaintiff on April 12, 2019, the
action would still be dismissed. Plaintiffs amended prisoner complaint fails to comply
with the directives of the Court’s February 13 order. Initially, the Court notes that the
amended prisoner complaint is not on the court-approved prisoner complaintiorm
Plaintiff has been warned numerous times that a pro se prisoner plaintiff must use the
court-approved prisoner complaint form. (ECF Nos. 4, 8, 10 & 14). Therefore, the
amended prisoner complaint filed on April 12 was deficient and could be dismissed for
failure to followa court order because Plaintiff failed to submit it on the court-approved
prisoner complaint form.
Furthermore, the amended prisoner complaint fails to comply with other
directives in the Court’s February 13 order. In the amended prisoner complaint, Plaintiff
asserts one claim of “violation of due process 5th[,] 4th & 14th Amend.” (ECF No. 18 at 6).
However, the amended prisoner complaint fails to assert factual allegations to support
-iLa- OVxaj,

an arguable due process claim.

3

>

As explained in Magistrate Judge Gallagher's Recommendation:
In this case, Plaintiff has not asserted any facts to support
the conclusion that the State of Colorado and City of Denver
lack a process by which a person can seek the return of the
'1lee1jfi3i?rceiTain circumstances. Plaintiff makes no
allegations that the charges againsLhim were dismissed- He
also fails to allege that the booking fee payment hindered bis
f'biHtyto^e^!ggsed_b^rettiaLinvanjQwgy. Importantly
Plaintinhas not alleged that he was entitled to a return of the
fee, but that it was not returned. Plaintiff, therefore, has not
adequately alleged a procedural due process claim.

r

L\ W

(ECF No. 17 at 7 (citing (ECF No. 14 at 3-6)). Similarly, in reviewing the amended
prisoner complaint filed by Plaintiff on April 12, 2019, he has noUdeguatelyjsserJed,
factual allegations^to support a procedural due process claim for the same reasons as
stated in Magistrate Judge Gallagher’s Recommendation. As a result, the only claim
asserted in the amended prisoner complaint suffers from the same deficiencies as the
initial complaint. Therefore, the Court concludes that Plaintiffs Objections to the
Recommendation by Magistrate Judge Gallagher are without merit and will be
overruled.
Accordingly, for the foregoing reasons, it is
ORDERED that Plaintiffs Objections to the Recommendation by Magistrate
Judge Gordon P. Gallagher (ECF No. 19) are overruled. It is
FURTHER ORDERED that the Recommendation of United States Magistrate
Judge Gordon P. Gallagher (ECF No. 17) is accepted and adopted. It is
FURTHER ORDERED that that the Prisoner Complaint (ECF No. 1), the
Amended Prisoner Complaint (ECF No. 18), and this action be DISMISSED WITH
PREJUDICE as legally frivolous. It is
4

FURTHER ORDERED that leave to proceed in forma pauperis on appeal be
DENIED WITHOUT PREJUDICE to the filing of a motion seeking leave to proceed in
forma pauperis on appeal in the United States Court of Appeals for the Tenth Circuit.
DATED: April 23, 2019
BY THE COURT:
s/Lewis T. Babcock
LEWIS T. BABCOCK, Senior Judge
United States District Court

5

Case l:18-cv-01453-GPG Documents Filed 08/14/18 USDC Colorado Page lot7

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 18-CV-01453-GPG
DAVID WAYNE ROBINSON,
Plaintiff,
v.
GOVENOR [sic] JOHN HICKENLOOPER,
MAYOR MICHAEL HANCOCK,
ATTORNEY GENERAL CYNTHIA COFFMAN, and
SHERIFF PATRICK FIRMAN,
Defendants.
ORDER DENYING APPOINTMENT OF COUNSEL AND
REPEATING SECOND ORDER DIRECTING PLAINTIFF TO CURE DEFICIENCIES
Plaintiff, David Wayne Robinson, is currently held at the Denver County Detention
Facility located in Denver, Colorado. On June 11, 2018, Plaintiff submitted a “Prisoner
Complaint” which indicates that it is the “form revised December 2017.” (ECF No. 1).
However, it is not the Court’s approved form. The document reflects jurisdiction
pursuant to 42 U.S.C. § 1983. (Id. at 3). Plaintiff did not pay the required filing fee or
submit a properly supported request to proceed without prepaying fees or costs under 28
U.S.C. §1915.
Following review of the materials submitted on June 11,2018 as required pursuant
to D.C.COLO.LCivR 8.1(b), on June 13, 2018, the Court issued an Order Directing
Plaintiff to Cure Deficiencies requiring the Plaintiff to either pay the $400.00 filing fee
required under 28 U.S.C. § 1914 or submit a properly supported request to proceed
without prepaying fees or costs under 28 U.S.C. § 1915 through use of the Court’s
approved forms. (ECF No. 4). The Order further required the Plaintiff to submit his
1

Case l:18-cv-01453-GPG Document 8 Filed 08/14/18 USDC Colorado Page 2 of 7

claims on the Court’s approved Prisoner Complaint form as required by the Local Rules of
this Court at D.C.COLO.LCivR 5.1(c). {Id.). The Plaintiff was provided with the
necessary forms to use in curing the filing deficiencies in this matter. {Id.). In response
to the Court’s Order, the Plaintiff filed a document titled “Cease and Disist [sic] Order of
Bias and Prejudice Proceedings” on June 27, 2018 which, among other things,
challenged the requirement that Plaintiff has to submit a signed Authorization form
allowing the agency holding him in custody to calculate and disburse funds from his
inmate account and also sought an Order from this Court directing the jail to allow him “all
the time, material, and information access that he needs so that he can prepare for his
trials.” (ECF No. 5). The cease and desist request was denied by the Court on July 17,
2018 for reasons stated in the Order Denying Cease and Desist Request. (ECF No. 6).
Additionally, in the same document, the Court issued a Second Order Directing Plaintiff to
Cure Deficiencies. {Id.).
In the Second Order Directing Plaintiff to Cure Deficiencies issued on July 17,
2018, Plaintiff was again required to cure the filing deficiencies in this matter by paying the
$400.00 filing fee or submitting a properly supported request to proceed without
prepaying fees or costs under 28 U.S.C. § 1915 through use of the Court’s approved
forms and also required to submit his claims on the Court’s approved Prisoner Complaint
form. {Id.). Plaintiff was provided with 30 days from the date of the Order in which to
cure the filing deficiencies and he was again provided with the necessary forms to use in
curing the filing deficiencies. {Id.). Plaintiff was warned that this action would be
dismissed if he failed to cure the deficiencies within the time allowed. {Id.).
On August 10, 2018, Plaintiff filed a Request for Attorney. (ECF No. 7). Plaintiff
contends that there is an affirmative obligation on the Court to provide him with counsel in
this matter. {Id.). However, the Court recognizes that there is neither a constitutional
2

Case l:18-cv-01453-GPG Document 8 Filed 08/14/18 USDC Colorado Page 3 of 7

nor a statutory right to counsel for civil litigants. See Johnson v. Johnson, 466 F.3d
1213, 1217 (10th Cir. 2006); Parham v. Johnson, 126 F.3d 454, 456-57 (3d Cir. 1997);
Carper v. DeLand, 54 F.3d 613, 616 (10th Cir. 1995); Tabron v. Grace, 6 F.3d 147, 153
(3d Cir. 1993); Durre v. Dempsey, 869 F.2d 543, 547 (10th Cir. 1989); Merritt v. Faulkner,
697 F.2d 761, 763 (7,h Cir. 1983). “The burden is on the [pro se litigant] to convince the
court that there is sufficient merit to his [or her] claim to warrant the appointment of
counsel.” Steffey v. Orman, 461 F.3d 1218, 1223 (10th Cir. 2006) (quoting Hill v.
SmithKIine Beecham Corp., 393 F.3d 1111,1115 910th Cir. 2004)). It is not enough “that
having counsel appointed would have assisted [the pro se litigant] in presenting his [or
her] strongest possible case, [as] the same could be said in any case.” Steffey, 461 F.3d
at 1223 (quoting Rucks v. Boergermann, 57 F.3d 978, 979 (10th Cir. 1995)). In other
words, the Court does not appoint an attorney to assist a plaintiff in finding claims that
have sufficient merit.
Notwithstanding this lack of a constitutional or statutory right to appointed counsel
in a civil case, 28 U.S.C. § 1915(e)(1) provides that ”[t]he court may request an attorney
to represent any person unable to employ counsel." The decision to request that an
attorney assist an individual unable to employ counsel and then appoint that attorney as
counsel in a case is left to the sound discretion of the trial court. A district court's
appointment of counsel pursuant to this statute is discretionary and must be made on a
case-by-case basis. Rucks v. Boergermann, 57 F.3d 978, 979 (10th Cir. 1995); Tabron,
6 F.3d at 157-58. Plaintiff has the burden to convince the Court that there is sufficient
merit to his claims to warrant the appointment of counsel. United States v. Masters, 484
F.2d 1251,1253 (10th Cir. 1973). Whether there is sufficient merit to the claims requires

3

Case l:18-cv-01453-GPG Document 8 Filed 08/14/18 USDC Colorado Page 4 of 7

an examination of the record at the time the request is made. See Jackson v. Turner,
442 F.2d 1303 (10*h Cir. 1971).
The exercise of this discretion, however, is guided by certain basic principles.
Gordon v. Gonzalez, 232 F. App’x 153, 156 (3d Cir. 2007). As a preliminary matter, the
plaintiffs claim must have some merit in fact and law. McCarthy v. Weinberg, 753 F.2d
836, 838 (10th Cir. 1985). If the district court determines that the plaintiffs claims have
some merit, then the district court should consider the following factors in considering a
motion to appoint counsel: 1) the plaintiffs ability to present his or her own case; 2) the
complexity of the legal issues; 3) the degree to which factual investigation will be
necessary and the ability of the plaintiff to pursue such an investigation; 4) the amount a
case is likely to turn on credibility determinations; 5) whether the case will require the
testimony of expert witnesses; and 6) whether the plaintiff can attain and afford counsel
on his or her own behalf. See, e.g., Hill v. SmithKIine Beecham Corp., 393 F.3d 111,
1115 (10th Cir. 2004) (holding that district courts should evaluate the merits of the claims,
the nature and complexity of the factual and legal issues, and the litigant’s ability to
investigate the facts and present his or her claims); Montgomery v. Pinchak, 294 F.3d
492, 498-99 (3d Cir. 2002); Maclin v. Freake, 650 F.2d 885 (7th Cir. 1981); Peterson v.
Nadler, 452 F.2d 754 (8th Cir. 1971).
Analysis of the above factors suggests that counsel should not be appointed in this
case at this time. As discussed above, Plaintiff has yet to cure the filing deficiencies in
this matter as ordered by the Court on June 13, 2018 (ECF No. 4) and again on July 17,
2018 (ECF No. 6). Consideration of whether the Plaintiffs claims have some merit in
fact and law is preempted because Plaintiff has failed to address the issue of the filing fee
through either the payment of the required $400.00 filing fee as required to initiate an
4

Case l:18-cv-01453-GPG Document 8 Filed 08/14/18 USDC Colorado Page 5 of 7

action in this Court under 28 U.S.C. § 1914, or by submitting a properly supported request
to proceed without prepaying fees or costs under 28 U.S.C. § 1915 through use of the
Court’s approved forms. Plaintiff has been twice provided with the Court approved forms
to be used in addressing this issue. After receiving notice of the requirements for in
forma pauperis filing and being provided with adequate time to address the issue, the
failure of the Plaintiff to either pay the required filing fee or file a properly supported
request to proceed without prepayment of the fee would, by itself, provide sufficient
grounds for a court to dismiss this matter under Rule 41 (b). See Campanella v. Utah
County Jail, 78 Fed.Appx. 72, 73 (10th Cir. 2003) (holding district court did not abuse its
discretion in dismissing action without prejudice because plaintiff failed to pay the filing
fee where plaintiff received adequate notice of IFP requirements and had sufficient time
to cure any deficiencies).
Further, although Plaintiff has twice been provided with the Court-approved
Prisoner Complaint form, he has yet to comply with the rules of this Court which requires
that his claims be submitted on the form. Pro se status does not excuse the obligation of
any litigant to comply with the same rules of procedure that govern other litigants. See
Green v. Dorrell, 969 F.2d 915, 917 (10th Cir. 1992); see also Nielsen v. Price, 17 F.3d
1276, 1277 (10th Cir. 1994). Dismissal of an action pursuant to Fed. R. Civ. P. 41(b) is
appropriate where a plaintiff fails to comply with court orders and the rules governing
procedure. See Reed v. Bennett, 312 F.3d 1190,1195 (10th Cir. 2002) (“A district court
undoubtedly has discretion to sanction a party for failing to prosecute or defend a case, or
for failing to comply with local or federal procedural rules.”); see also United States ex rel.
Jimenez v. Health Net, Inc., 400 F.3d 853, 855 (10th Cir. 2005) (citing Nat 1 Hockey
League v. Metro Hockey Club, Inc., 427 U.S. 639, 642-43 (1976) (“dismissal is an
appropriate disposition against a party who disregards court orders and fails to proceed
5

Case l:18-cv-01453-GPG Document 8 Filed 08/14/18 USDC Colorado Page 6 of 7

as required by court rules.”).
The Court further notes that Plaintiff has been able to present his various
contentions and arguments in a fairly comprehensible manner to date, and that he has
regularly communicated with the Court on other matters in this case. The Court
therefore cannot conclude at this time that Plaintiff lacks the ability to present his own
case. The Court also finds that the legal issues presented by this case are not overly
complex and that it appears that no factual investigation is necessary at this point in the
proceedings. Plaintiff has been provided with the necessary forms needed to proceed in
this regard, and he need only complete them and submit them along with any necessary
supporting documentation. In submitting a Prisoner Complaint on the Court’s approved
form, Plaintiff may plead facts of which he is already aware. Finally, Plaintiff does not
state whether he attempted to secure counsel to represent him on a volunteer basis
before making his request for the Court to provide volunteer counsel. As such, the Court
cannot conclude that Plaintiff is unable to attain counsel on his own behalf. If this case
passes initial review and is drawn to a presiding judge, Plaintiff may renew his motion for
appointment of counsel at that time. Accordingly, it is
ORDERED that Plaintiffs request for appointment of counsel (ECF No. 7) is
DENIED without prejudice as premature. It is
FURTHER ORDERED that Plaintiff has until and including August 17, 2018 in
which to cure the filing deficiencies noted in the Court’s Orders of June 13, 2018
(ECF No. 4) and July 17, 2018 (ECF No. 6). Any papers that Plaintiff files in response
must be labeled with the civil action number identified on this Order. It is
FURTHER ORDERED that Plaintiff must pay the $400.00 filing fee or submit a
properly supported request to proceed without prepaying fees or costs under 28 U.S.C. §
1915 through use of the Court’s approved forms and he must also submit his claims on
6

Case l:18-cv-01453-GPG Documents Filed 08/14/18 USDC Colorado Page 7 of 7

the Court’s approved Prisoner Complaint form on or before August 17, 2018. Plaintiff
has twice previously been provided with the necessary forms in this regard.

It is

FURTHER ORDERED that if Plaintiff fails to cure the designated filing deficiencies
set forth in the Court’s Orders of June 13, 2018 (ECF No. 4) and July 17, 2018 (ECF No.
6), and again restated in this Order, on or before August 17, 2018, the action will be
dismissed without further notice. The dismissal shall be without prejudice.
DATED August 14, 2018, at Denver, Colorado.
BY THE COURT:

Gordon P. Gallagher
United States Magistrate Judge

7

c

j™\. 1 tJ T h

^ 10 /) 12
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Gordon P. Gallagher, United States Magistrate Judge

Civil Action No. 18-cv-01453-GPG
DAVID WAYNE ROBINSON,
Plaintiff,
v.
JOHN HICKENifOOPER, Governor, individual and official capacity,
MICHAEL HANCOCK, Mayor, individual and official capacity,
CYNTHIA COFFMAN, Attorney General, individual and official capacity,
PATRICK FIRMAN, Sheriff, individual and official capacity,
Defendants.
RECOMMENDATION REGARDING DISMISSAL
This matter comes before the Court on the Prisoner Complaint (ECF No. 1)1 filed
pro se by the Plaintiff on June 11, 2018. The matter has been referred to this
Magistrate Judge for recommendation (ECF No. 16)2. The Court has reviewed the
filings to date. The Court has considered the entire case file, the applicable law, and is

1 «
(ECF No.__ )” is an example of the convention I use to identify the docket number assigned to a specific
paper by the Court’s case management and electronic case filing system (CM/ECF). I use this convention
throughout this Recommendation.

2 Be advised that all parties shall have fourteen (14) days after service hereof to serve and file any written
objections in order to obtain reconsideration by the District Judge to whom this case is assigned. Fed. R.
Civ. P. 72(b). The party filing objections must specifically identify those findings or recommendations to
which the objections are being made. The District Court need not consider frivolous, conclusive, or general
objections. A party’s failure to file such written objections to proposed findings and recommendations
contained in this report may bar the party from a de novo determination by the District Judge of the proposed
findings and recommendations. United States v. Raddatz, 447 U.S. 667, 676-83 (1980); 28 U.S.C. §
636(b)(1). Additionally, the failure to file written objections to the proposed findings and recommendations
within fourteen (14) days after being served with a copy may bar the aggrieved party from appealing the
factual findings of the Magistrate Judge that are accepted or adopted by the District Court. Thomas v. Am,
474 U.S. 140, 155 (1985); Moore v. United States, 950 F.2d 656, 659 (10th Cir. 1991).
1

sufficiently advised in the premises. This Magistrate Judge respectfully recommends
_that the Prisoner Complaint be dismissed with prejudice as legally frivolous.
I.

Factual and Procedural Background
Plaintiff, David Wayne Robinson, is currently incarcerated at the Bent County

Correctional Facility (BCF). At the time Plaintiff initiated this action, he was a pre-trial
detainee at the Denver Detention Facility.
_On February 13, 2019, the Court ordered Plaintiff to file an amended prisoner
complaint. (ECF No. 14). Mr. Robinson was warned that if he failed to file an amended
prisoner complaint as directed within thirty days, the action could be dismissed without
further notice. Plaintiff has failed to file an amended prisoner complaint within the time
allowed and he has failed to communicate with the court in any way since the February
13 Order was issued. Therefore, the Court will review the original Prisoner Complaint
(ECF No. 1), filed on June 11, 2018.
II.

Legal Standards
The Court must construe the Prisoner Complaint liberally because Mr. Robinson

is not represented by an attorney. See Haines v. Kerner, 404 U.S. 519, 520-21X19Z2);
Hall v. Bellmon, 935 F.2d 1106, 1110 (10th Cir. 1991). However, the Court should not
act as an advocate for pro se litigants. See Hall, 935 F.2d at 1110.
Mr. Robinson has been granted leave to proceed in forma pauperis pursuant to
28 U.S.C. § 1915. (ECF No. 13). Therefore, the Court must dismiss the action if the
claims in the Prisoner Complaint are frivolous or seek damages from a defendant who is
immune from such relief. See 28 U.S.C. § 1915(e)(2)(B)(i) & (iii). A legally frivolous
claim is one in which the plaintiff asserts the violation of a legal interest that clearly does

2

not exist or asserts factaJthatdanot support an arguable claim. See Neitzke v.
Williams, 490 U.S. 319, 327-28 (1989). For the reasons discussed below. I recommend
that this action be dismissed as legally frivolous.
III. The Prisoner Complaint
In the Prisoner Complaint, Mr. Robinson asserts three claims: (1) violation of due
process; (2) separation of powers; and (3) cruel and unusual punishment. (ECF No. 1 at
4). According to Mr. Robinson, the Denver Detention Facility collects a $30.00 booking
fee when a detainee is booked into jail, which is illegal in several other states.,. As for
the specific factual allegations regarding the defendants’ participation, Mr. Robinson
alleges that Defendant Governor Hickenlooper enacts and retracts laws for the state
Defendant Mayor Michael Hancock oversees the city policies and the corruption,
Defendant Attorney General Cynthia Coffman is supposed to press charges for criminal
violations, and Defendant Sheriff Patrick Firman enforces the $30.00 booking fee. (Id.).
For his second claim of "separation of powers,” Plaintiff alleges that “Sheriff Deputies
take the money when they can’t impose a sentence.” (Id.). For his third claim of cruel
and unusual punishment, Plaintiff alleges that “[i]t’s very traumatizing to individuals[.]”
(Id.). For relief, he states he is “really not sure at this point. Although Compensation is
(Jefinetly [sic] a sure thing.” (Id. at 6).
_

IV. Deficiencies in Prisoner Complaint
As set forth in the February 13 Order directing Plaintiff to file an Amended
Prisoner Complaint (ECF No. 14),. the prisoner complaint is deficient because Plaintiff
failed to adequately allege the personal participation of each named defendant, and he

3

failed to assert factual allegations to support an arguable due process claim, separation
of powers claim, and cruel and unusual punishment claim.
A. § 1983 and Personal Participation
The Complaint is deficient because Mr. Robinson fails to adequately allege the
personal participation of any of the defendants in the violation of his federal rights. In
the Court’s February 13 Order, the Court directed Mr. Robinson as to the personal
participation requirement as follows:
“To state a claim under [42 U.S.C. §] 1983, a plaintiff must
allege the violation of a right secured by the Constitution and
laws of the United States ... .” West v. Atkins, 487 U.S. 42,
48 (1988). In addressing a claim brought under § 1983,
analysis begins by identifying the specific constitutional right
allegedly infringed. Graham v. Connor, 490 U.S. 386, 393394 (1989) (internal quotations and citations omitted). The
validity of the claim then must be judged by reference to the
specific constitutional standard which governs that right. Id.
Plaintiff must allege each defendant’s personal participation
in the alleged deprivation. See Bennett v. Passic, 545 F.2d
1260, 1262-63 (10th Cir. 1976); Kentucky v. Graham, 473
U.S. 159, 166 (1985). There must be an affirmative link
between the alleged constitutional violation and each
defendant’s participation, control or direction, or failure to
supervise. See Gallagher v. Shelton, 587 F.3d 1063, 1069
(10th Cir. 2009) (citations and quotations omitted); Dodds v.
Richardson, 614 F.3d 1185, 1200-1201 (10th Cir. 2010).
“The requisite showing of an ‘affirmative link’ between a
supervisor and the alleged constitutional injury has ‘[come]
to have three related prongs: (1) personal involvement, (2)
sufficient causal connection, and (3) culpable state of mind.’”
Cox v. Glanz, 800 F.3d 1231, 1248 (citing and quoting
Dodds, 614 F.3d at 1195). A supervisor can only be held
liable for his own deliberate intentional acts. See Ashcroft v.
Iqbal, 556 U.S. 662, 676 (2009); Serna v. Colo. Dep’tof
Corrections, 455 F.3d 1146, 1151 (10th Cir. 2006)
(“Supervisors are only liable under § 1983 for their own
culpable involvement in the violation of a person's
constitutional rights.”).

4

(ECF No. 14 at 2-3).
Despite these explicit instructions from Judge Gallagher, Plaintiff failed to file an
amended prisoner complaint that adequately alleged the personal participation of any of
the defendants in the violation of his federal rights. His allegations that Defendant
Governor Hickenlooper enacts and retracts laws for the state, Defendant Mayor Michael
Hancock oversees the city policies and the corruption, and Defendant Attorney General
Cynthia Coffman is supposed to press charges for criminal violations fail to adequately
allege any personal involvement, sufficient causal connection, or culpable state of mind
by these Defendants. Further, his allegation that Defendant Sheriff Patrick Firman
“enforces” the $30.00 booking fee is vague and conclusory and does not establish an
affirmative link between the Defendant and Plaintiffs alleged constitutional injury.
Thus, I recommend that all of Plaintiffs claims be dismissed as legally frivolous for
failure to adequately allege how each of the named defendants personally participated
in violating Plaintiffs federal rights.
[Hb. Constitutional^Claims^
Next, even if Plaintiff had adequately alleged the personal participation of
Defendants, I would recommend that his claims be dismissed as legally frivolous.
1. Due Process
Plaintiffs allegationsregarding the collection of a $30.00 jail booking fee fail to
adequately assert facts to support a due process claim. In the February 13 Order, the
Court specifically instructed Plaintiff as to the deficiencies in his due process claim as
follows:
Plaintiffs due process claim appears to be based on
deprivation of his property (/.e., $30.00) without due process.
5

The United States Constitution guarantees due process
when a person is to be deprived of life, liberty, or property.
See Templeman v. Gunter, 16 F.3d 367, 369 (10th Cir.
1994). The analysis of a due process claim proceeds in two
stages, first, the Court considers "whether there exists a
Liberty or propertyTnterest of which a persorThas been
deprived," and if so, it then considers “whether the."
procedures followed by the State were constitutionally.
"‘sufficient." Swarthout v. Cooke. 562115.216. 219720111.
“[T]he processes required by the Clause with respect to the
termination of a protected interest will vary depending upon
the importance attached to the interest and the particular
circumstances under which the deprivation may occur.”
Walters v. Nat'l Ass'n of Radiation Survivors, 473 U.S. 305,
320 (1985).
In this case, Plaintiff alleges he was deprived of $30.00, but
there are no alleqationsThaHhe booking fee deprived him ot
his liberty in anyway. It is clear tnat Mr. Robinson had~a~
j3ropertyJntere~st irHhe*l530.0Q used to pay the booking fee.
The bookinq-fee~policv thus implicates procedural due~
Jprocess, and “the question remains what process is due."
Morrissey'v. Brewer, A08 U.S 471,481, 92 S.Ct. 2593, 33
L.Ed.2d 484 (1972). The requirements of due process are
not rigid; rather, they "call[ ] for such procedural protections
as the particular situation demands." Greenholtz v. Inmates
of Neb. Penal & Corr. Complex, 442 U.S. 1, 12, 99 S.Ct.
2100, 60 L.Ed.2d 668 (19791. To determine whether the
process afforded is sufficient, courts must balance the
Ttollowinglhree interests: (1) ‘ the private interest that will be
raffected bv the official action? (211the Governmentf
r
interest:” and (3) “the risk of an erroneous deprivation of [the
jjrivatel interest through the procedures used, and the^
probable value, if any, of additional or substitute procedural
safeguards." Mathews v. Eldridge, 424 U.S. 319, 335, 96
'S.Ct. 893, 47 L.Ed.2d 18 (1976). “The ultimate balance
involves a determination as to whenTunder our constitutional
~ system, judicial-type procedures must be imposed upon. "
'administrative action to assure fairness.” Id. at 348. The
'’Supreme uourt nas recognized, on many occasions, that
where a State must act quickly, or where it would be
impractical to provide predeprivation process,
postdeprivation process satisfies the requirements of the
Due Process Clause.” Gilbert v. Homar, 520 U.S. 924, 930
(1997).

6

Many Courts have determined that the collection of a jail
booking fee does not violate due process as long as there is
an adequate post-deprivation procedure available to recover
the fee for individuals who were wrongfully arrested, not
charged, or not convicted. Sickles v. Campbell County, 501
F.3d 726 (6th Cir.2007) (a pre-deprivation hearing was not
constitutionally required because the county had a legitimate
interest in collecting the fee and because the challenging
parties did not demonstrate why the jail's grievance
procedure and other post-deprivation remedies failed to
protect their interests in preventing a flawed withholding);
Mickelson v. Cty. of Ramsey, 823 F.3d 918, 923-30 (8th Cir.
2016) (same). Further, other courts have reached the same
conclusion about the limited nature of the private interest at
stake when considering automatic deductions for other jailrelated fees. See, e.g., Slade v. Hampton Roads Reg'l Jail,
407 F.3d 243, 253 (4th Cir.2005) (stating that inmates had
only a “limited" property interest in a dollar-per-day jail­
housing fee because the fee could only be imposed, absent
a hearing, for a period not to exceed five months).
In this case, Plaintiff has not asserted any facts to support
the conclusion that the State of Colorado and City of Denver
lack a process by which a person can seek the return of the
fee under certain circumstances. Plaintiff makes no
allegations that the charges against him were dismissed. He
also fails to allege that the booking fee payment hindered his
ability to be released before trial in anyway. Importantly,
Plaintiff has not alleged that he was entitled to a return of the
fee, but that it was not returned. Plaintiff, therefore, has not
adequately alleged a procedural due process claim.
In order to pursue a due process claim, Plaintiff must file an
amended prisoner complaint that adequately alleges that the
booking fee either deprived him of liberty or that he was
entitled to a refund of the booking fee but the post­
deprivation remedies are inadequate.
(ECF No. 14 at 3-6). Therefore, as the facts asserted by Mr. Robinson in
the Prisoner Complaint do not support an arguable due process claim, I
recommend the claim be dismissed as legally frivolous.

7

humane conditions of confinement, including adequate food,
clothing, shelter, sanitation, medical care, and reasonable
safety from serious bodily harm.” Tafoya v. Salazar, 516
F.3d 912, 916 (10th Cir. 2008). The Eighth Amendment is
violated when a prison official acts with deliberate
indifference to a substantial risk of serious harm to an
inmate. Farmer v. Brennan, 511 U.S. 825, 828 (1994)i^An_
Eighth Amendment claim must satisfy two requirements.
^FTFsTTTfTen^eiorlNTaTiorraTieqed must be. objectively"
,*:sufficiently serious.”’ Id. at 834 (quoting Wilson v Seiter,
501 U.S. 294, 298 (1991)). Second, “a prison official must
have a 'sufficiently culpable state of mind.’” Id. This second
feguirementTs subjective, rather than objective:"^ prison"
dffjcial carTnoTbe found liafiTe under the Eighth Amendment
Tor denying an inmate humane conditions of confinement "~
unless the official knows of and disregards an excessive risk
to inmateTiealth or safety; the^fficial musTbotFrbe^ aware of
Tacts 'frbm which theTnference could be drawn that a
IrubStantiaTrisk of serious harm exists, and he must also
draw the inference” Id. at 837. Based on Plaintiff’s factual
allegations,TiiThasfailed to adequately assert the objective
and subjective components of a cruel and unusual
punishment claim against the defendants.
(ECF No. 14 at 7). Therefore, because Mr. Robinson has failed to adequately assert
the objective and subjective components of a cruel and unusual punishment claim in his
Prisoner Complaint, I recommend that this claim be dismissed as legally frivolous.
C. In Forma Pauperis on Appeal
The Court further recommends certification pursuant to 28 U.S.C. § 1915(a)(3)
that any appeal from this Order would not be taken in good faith and, therefore, in forma
pauperis status should be denied for the purpose of appeal. See Coppedge v. United
States, 369 U.S. 438 (1962). If Plaintiff files a notice of appeal he should also pay the
full $505 appellate filing fee or file a motion to proceed in forma pauperis in the U.S.
Court of Appeals for the Tenth Circuit within thirty days in accordance with Fed. R. App.
P. 24.

9

V. Recommendation
For the reasons set forth herein, this Magistrate Judge respectfully
RECOMMENDS that the Prisoner Complaint (ECF No. 1) and this action be
DISMISSED WITH PREJUDICE as legally frivolous. It is
FURTHER RECOMMENDED that leave to proceed in forma pauperis on appeal
be DENIED WITHOUT PREJUDICE to the filing of a motion seeking leave to proceed in
forma pauperis on appeal in the United States Court of Appeals for the Tenth Circuit.
DATED at Grand Junction, Colorado, this 5th day of April, 2019.
BY THE COURT:

Gordon P. Gallagher
United States Magistrate Judge

10

leHl-P cd4e

<s-P
S>-er\i \i£.
_L KPuiJ
Su^eAc A*jA jiAitsir TK^vT /{ Ce^y of
Tie OrkiJAl PcTiTfoA /Ms heed M/flfed To 7/e t/^kd STATES su^e.

Court ft*J The fi-mwe/
4c Tit s&nr *f &Mmca)L^
is Tie frTTomy fo£ 71* fygTf^s AaI Tf^e /£& 26lO~ffdm
Jle Bl/PsJA I/I$fa CofftcT/d+J*! CtfijUc 7~° The (Jrii/ed STATES
PoAsTaI Service

Tv ht delivered To Tie flddees^es /e/ouJ U/oder
Z$ CISC# 17%

\)

Six^>Ce<n£

Cour4" cfs

i F'fst $T£€TT

lMhd^To/J
t). fillip

1C

The (J-fOiW>

flJx £'

Z0T7S

Wels^c

v

frTToWE/ (ke/JtZfil’Strte ot Coiotfi1360 (*>coAM/V/
"bMi/er CoIo^a^o

S^aWs

goz03

0**j,wJL

6

